CD

Qjy
l No:
19- "
In The

Supreme Court of the United State
Alfred Lam; Paula Leiato, et aC.,
<Vetitioners-LpCaintiffs, |
v.

City & County of San Francisco; et aC.,
San Francisco Juvenile Probation Department,
(Resporufent-'Defendants,

On Petition for Certiorari to the United States Supreme
Court from the Court of Appeals for the Ninth Circuit

Ninth Circuit Court No: 17-15208
U.S.D.C. No: 3:08-cv-04702 Pjk
Northern District of California

PETITION FOR A WRIT OF CERTIORARI

Alfred Lam, Paula Leiato
P.O. Box 16376,
San Francisco, CA 94116
(415) 992-0071
In Pro Per
Page 1

filed"*
AUG 2 7 2019

QUESTIONS PRESENTED
Petitioners, both Asian Pacific Americans, are
working in San Francisco Juvenile Hall for many
years. Due to continuous and on-going discrimination,
harassment, intimidation, and retaliation, petitioners
filed their current lawsuit [USDC No: cv08-04702] in
October, 2008, in pro se. The district court denied
petitioners requests to file amended complaints with
additional allegations. The related case of [USDC No:
cvlO-04641] was filed in October, 2010. While the
current case was dismissed by the district court in
2012, it was affirmed by the Ninth Circuit, and denied
by this Court.
At that time, petitioners knew of some of
respondents’ conduct during the litigation process
that they reasonably believe constituted misconduct.
Petitioner filed a related case in October, 2010, [USDC
No: cvlO-04838] dismissed by the district court for
having “no standing”. During later proceedings in the
related case [USDC No: cvlO-04641] around 2015,
petitioners learned of additional improprieties by
respondents with conduct that confirmed the
respondents’ misconduct rose to a level constituting
“fraud upon the court”.
In 2016, petitioners then moved to set aside the
federal court judgment under Federal Rule of Civil
Procedure 60(d)(3) for “fraud on the court.” The
district court denied petitioners’ “motion for
reconsideration as untimely and meritless, but the
district Court did acknowledge and stated that the
only remaining ground for relief that is not expressly
time-barred is Rule 60(d)(3), which reflects the court’s
inherent power to “set aside a judgment for fraud upon
the court”. The Ninth Circuit then affirmed.
Page 3

The questions presented are:
1. Whether the Ninth Circuit’s decision imposes
an erroneous and unjustifiable standard for
“Fraud Upon The Court”?
2. Whether granting the writ generates an issue
of exceptional importance to “public interest”?
3. Whether a “public employee”, as witnesses in
this case a “California Sworn Peace Officer”
intentionally provided false information including
supplemental filings to the court rising to a level
constituting “fraud upon the court”?
[Short answer consideration: see Levancferv. (ProBer
(In re Levander), 180 F.3d 1114, 1120 (9th Cir. 1999)
(perjury committed by a single non-party witness was
so detrimental to the entire bankruptcy proceeding
that it was held to be fraud on the court)]

Page 4

PARTIES TO THE PROCEEDING
1) Alfred Lam, Paula Leiato,
(petitioners-(p[aintiffs,
2) City & County of San Francisco, ‘ETjiL.
San Francisco Juvenile Probation Department,
(Respondent-tDefendants,

In addition to the party identified in the caption,
respondent-defendants also include Dennis Doyle,
individually and in his Official Capacity as Director of
SF Juvenile Hall;, Timothy Diestel, individually and
in his Official Capacity as Assistant Director of SF
Juvenile Hall; John Radogno, Alfred Fleck, Charles
Lewis, Wayne Williams, individually and in their
Official Capacities as a “Supervisory Employee” of SF
Juvenile Hall of San Francisco Juvenile Probation
Department.

Page 5

RELATED CASES
1) Alfred Lam, Paula Leiato vs.
City & County of San Francisco, ‘E'TJQL.
San Francisco Juvenile Probation Department;
No:16-15596 Ninth Circuit Court of Appeals,
currently pending a writ of certiorari.

2) Alfred Lam, Paula Leiato vs.
City & County of San Francisco, ‘E’TflL.
San Francisco Juvenile Probation Department;
No: 16-16559 Ninth Circuit Court of Appeals,
currently pending a writ of certiorari.

Page 6

TABLE OF CONTENTS
3

QUESTIONS PRESENTED.........
PARTIES TO THE PROCEEDING
RELATED CASES.....................
TABLE OF CONTENTS.............

7

TABLE OF APPENDICES..........

8

TABLE OF AUTHORITIES.........................

9

PETITION FOR WRIT OF CERTTIORARI

11

OPINION BELOW

13

JURISDICTION,

13

RELEVANT FEDERAL RULES

14

STATEMENT OF THE CASE........................
A. Background............................................
1. Introduction......................................
2. The Misconduct Perpetrated by the
Respondents (Government Agent)...
B. District Court Proceedings....................
C. Ninth Circuit Proceedings....................

14
14
14
15
16
17

REASONS FOR GRANTING PETITION

18

5
6

I. Whether the Ninth circuit’s decision imposes an
erroneous and unjustifiable standard for “Fraud Upon
18
the Court.
II. Whether granting the writ generates an issue of
31
exceptional importance to “public interest”
Page 7

III. Whether a “public employee”, as witnesses in this
case a “California Sworn Peace Officer” intentionally
provided false information including supplemental
filings to the court rising to a level constituting “fraud
32
upon the court”
Conclusion........

33

Appendix A: 9th (Ninth) Circuit Court
Memorandum on 3/18/2019.....................

36

Appendix B: U.S. District Court Order denying
Motion for Reconsideration on 1/4/2017................. 40
Appendix C: U.S. District Court Motion of
Summary Judgment and dismissed case on
4/13/2012...............................................................

44

Appendix D: 9th (Ninth) Circuit Motion for
Reconsideration Decision on 4/19/2019..........

88

Page 8

TABLE OF AUTHORITIES
Cases
Alexander v. Fp6ertson,
882F. 2d 421, 424 (9th Cir.1989).............................. 22
J4ou.de v. 9do6iCe OiCCorp.,
892 F.2d 1115 (1st Cir. 1989).................................. 29
(Bronson v. SchuCten
(1881) 104 US. 410,415........................................ 27
ProyhiCCFurniture Indus., Inc. v. Craftmaster Furniture
Corp.,
22
12 F. 3d 1080, 1085 (Fed. Cir.1993).
<Demjanjuf(v. (Petrovsky,
29
10 F.3d 338 (6th Cir. 1993).......
Fo^ex^rel. FoxFtkjPjun CoaCCo.,
29
739 F.3d 131 (4*h Cir. 2014).....
great Coastal Fyp., Inc.
v. Int’C(Bfid Of Teamster,
30
675 F.2d 1349 (4th Cir. 1982)....
Hazel-Atlas glass Co.
v. Hartford-Fmpire Co.,
passim
322 U.S. 238 (1944)...................
Herring v. United States
29
424 F.3d 384 (3d Cir. 2005)......
In re golf255, Ins.,
29, 30
652 F.3d 806 (7th Cir. 2011)......
In re Intermagnetics America, Inc.,
21
926 F. 2d 912, 916 (9th Cir. 1991).
Landscape Props., Inc. v. Uogef,
29
46 F.3d 1416 (8* Cir. 1995)......
Levander v. ProSer (In re Levander)
21
180 F.3d 1114 (9th Cir. 1999)....
Page 9

‘Toscano v. Comm'r,
441 F.2d 930, 933 (9th Cir.1971).........
V.S. v. BeggerCy
1998 524 U.S. 38, 38-39........................
UnitedStates v. Estate ofStoneHiCC,
660 F. 3d 415, 444 (9th Cir. 2011)........
V.S. v. Estate ofStonefiifC
(Ninth Circuit 2011) 660 F.3d 415 446.
V.S. v. Sierra (Pacific Industries,
(2015) 100 F.Supp. 3d 948, 955.............
Wayman v. SoutHard
(1825)23 U.S. 1,4,................................

20
22

.22
21
.20, 21
27

Statutes
Other Authorities
11 Wright & Miller, Federal Practice and Procedure
section 2870 ..........................................................
Moore and Rogers, Federal Relief from Civil
Judgments (1946) 55 Yale L.J. 623, 653—659> 3
Moore's Federal Practice (1938) 3267 et seq.......
Rules
Fed. R. Civ. Proc. 60........
Fed. R. Civ. Proc. 60(b)....
Fed. R. Civ. Proc. 60(d)(3)

Page 10

19
26

passim

PETITION FOR WRIT OF CERTIORARI
This case poses two significant questions that go
to the very heart of the integrity of our justice system.
One is the traditional subculture of a “code of silence”,
which is deeply rooted within the law enforcement
sector of the government employees included in
petitioners’ worksite, San Francisco Juvenile Hall,
which was scheduled to close on December 31, 2021.
The other is unique to our daily professional lives of
major principle. Both merit this Court’s review.
Throughout 2015 and 2016, during and after the
discovery process of related case [USDC cvlO-04641,
9th Circuit Court No: 16-15596], while those
proceedings unfolded and eventually concluded, the
full scope of the respondents’ misconduct came to light
and was then presented to the district court in the
above related case, as well as, the current case in the
district court by filing the “motion for reconsideration”
pursuant to Federal Rule of Civil Procedure 60(d)(3)
for “fraud upon the court”.
Going forward with the evidence, the petitioners
produced “after-discovered fraud” related evidence
after judgment as follows, including but not limited to:
(1) producing multiple false allegations of misconduct
to force discipline upon and against Petitioners; (2)
respondents’ counsel permitting and even coaching
witnesses to file false declarations to the court; (3)
coaching respondents’ witnesses to provide false
testimony under oath via their deposition responses;
(4) falsely blaming one petitioner for initiating an
“excessive force and child abuse” incident in
petitioners’ worksite; (5) having multiple respondents’
produced witnesses to falsely testify that there is no
such thing as a “code of silence” (or Big Blue Wall)
Page 11

inside San Francisco Juvenile Hall; (6) falsely
representing to the court that there was no evidence
implicating
any
individual
misconduct
of
discrimination despite knowledge of substantial
evidence to the contrary (i.e: first-hand knowledge of
witnesses, employment histories, jobsite statistics,
media and Internet articles etc.); and (7) actively
condoning and concealing respondents’ employee
misconduct included discrimination against APA.
In light of the totality of circumstances involving
fraud, petitioners moved to set aside the judgment
under Rule 60(d)(3), alleging “fraud upon the court.”
Given the breadth and seriousness of the misconduct
allegations leveled against multiple governmental
employees (CA sworn peace officers), who purposefully
provided declarations of false allegations against
petitioners under oath via depositions though a court
reporter, with Respondents’ counsel present or filing
them with the court. The district court primarily
based its decision upon false or misleading documents
or information by Respondents and failing to give
proper weight to statutory presumptions and evidence
by petitioners to the contrary in reaching the
conclusion of summary judgment against petitioners
resulting in a dismissal and assessment of costs
against petitioners.
On appeal, the Ninth Circuit refused to examine
whether the totality of circumstances and the
evidence here amounted to fraud upon the court, even
though petitioners had produced and filed close to one
thousand (1000) pages of relevant undisputed
documents of excerpts of record clearly identifying
“after-discovered fraud upon the court” evidence after
their judgment. This decision flatly contradicts this
Page 12

Court’s leading fraud-upon-the-court precedent JdazeC-Mks glass Co. v. Hartford-'Empire Co., 322 U.S.
238 (1944) - which makes it clear that Rule 60(d)(3)
motions are not limited solely to after-discovered
fraud. The Ninth Circuit’s decision adds to the
confusion in the lower courts about what constituted
fraud upon the court, an issue this Court has not
addressed since jCcizeC-fitCds. Under the Ninth Circuit s
theory, litigants (including the government) may
escape consequences for a fraud upon the court so long
as the evidence of misconduct disclosed at the laterdisclosed evidence of misconduct standing alone
supports a finding of fraud — as is here, post-judgment
evidence supports sued afinding.
This case raises serious questions old and new
that go to the heart of the guarantee of a fair trial and
justice. The Ninth Circuit’s decision was affirmed
incorrectly in ways that conflict with this Courts
precedents, as well as, undermine public policy and
matters of public concern that granting the
Petitioners’ Certiorari is imperative and of paramount
importance.
OPINIONS BELOW
The opinion of the United States District Court was
rendered on January 4, 2017. The 9th Circuit affirmed
on March 18, 2019; Rehearing was denied on April 19,
2019.
JURISDICTION
The Supreme Court has Article 3 Section 2
jurisdiction to review the decisions of the 9th Circuit
and federal district court. The Ninth Circuit had
jurisdiction pursuant to 28 USC 1291.

Page 13

RELEVANT FEDERAL RULES
Federal Rule of Civil Procedure 60 comes to play.
Relief from a judgment or Order: Rule 60(b)(2)
regarding newly discovered evidence that, with
reasonable diligence, could not have been discovered
in time to move for a new trial under Rule 59(b); Rule
60(b)(3) fraud (whether previously called intrinsic or
extrinsic), misrepresentation, or misconduct by an
opposing party; and Rule 60(b)(6) any other reason
that justifies relief; and Rule 60(d)(3) setting aside a
judgment for fraud upon the court.
STATEMENT OF THE CASE
A. Background
1. Introduction
Both petitioners, as a “civil rights litigants”, most
of the time in pro se representation, have been
litigating since 2006 against their employers’ (City &
County of San Francisco) thru related state and
federal agencies. The current case was filed in the
district court in October, 2008. In October, 2010, due
to the district court misapplying the limitations period
of the statute of limitations of the on-going causes of
action by petitioners, petitioners filed a related case
[USDC No: cvlO-04641], also currently filing a writ of
certiorari to this Court. Throughout 2015 and 2016,
during the trial process of the above related case of
deposing respondents’ produced witnesses and their
declarations, petitioners found out through “newly
discovered evidence” that, with reasonable diligence,
could not have been discovered in time to move for a
new trial under Rule 59(b); also the fraud (whether
extrinsic),
previously
called
intrinsic
or
misrepresentation, or misconduct by respondents was
Page 14

applicable to this case, which would have permitted
the district court to make the contrary decision they
failed to make. This evidence! however, was presented
to and overlooked by the district court and the 9th
Circuit.
2. Misconduct Perpetrated by Respondents
(the City & County of San Francisco)
In 2015, as Petitioners would eventually discover,
the respondents’ defense strategy to these actions was
riddled with misconduct up to and including the entry
of judgment in 2012, which rose to a level constituting
“after-discovered evidence”.
a. This misconduct started with the deposition
process in the related case in 2015. The respondents’
produced witnesses of the current case, who also
produced the declarations to the court on 2011 befoi-e
the summary judgment, denied they ever made the
declarations consisting of false allegations against
petitioners and fraudulent reports to support
respondents’ position.
b. Petitioners discovered respondents’ counsels
submitted falsified and fraudulent evidence, failed to
disclose obviously relevant exculpatory evidence as
required as part of their obligation under the initial
disclosure requirements, and misrepresented key
facts shining false light upon the petitioners.
c. Petitioners confirmed that from the depositions
of respondents’ produced witnesses, which indicated
respondents filed false allegations of using
inappropriate language against petitioner Leiato for
retaliation of her “protected activities” in several
occasions, which resulted in a twenty days suspension.

Page 15

Petitioners confirmed that respondents’
d.
included their counsels of record concealed, tolerated
and covei-up incidents from the judge of the di,strict
court regarding use of excessive force, child abuse and
neglect, and sexual abuse incidents inside San
Francisco Juvenile Hall (petitioner’s worksite) based
upon related case of [USDC No: cvlO-04838] filed on
2010.
e. Petitioners discovered that Petitioner Lam’s
supervisor Radogno instructed Petitioner Lam to
clean-up feces in detainee’s room instead of trained
professional, where such directive was way outside of
Petitioner Lam’s job description and forced upon Lam
in an act of discrimination and harassment, instead of
other non-APA employees.
f. During 2015-2016, Petitioners discovered based
upon at least four (4) witnesses, who has first-hand
knowledge and provided admissible written evidence
to district court, which clearly indicates the “fraud
upon the court” misconduct of respondents.
g- Finally, Petitioners discovered that the
Respondent-Defendants’ counsel knew and should
have known those false and fraudulent documents and
testimonies provided to the district court as material
facts for their “motion of summary judgment” on 2012.
The district court primarily used the above ‘false and
fraudulent” declarations and testimonies while
purposely disregarding Appellants’ declarations,
testimonies, and evidence against Appellees to render
a judgment in favor of Respondents-Defendants in
2012.
B, District Court Proceedings
Armed with significant confirmed evidence of all
the respondents’ misconduct, petitioners in December
Page 16

29, 2016 moved to set aside the summary and final
judgment of the current case under Rule 60(d)(3),
alleging “fraud upon the court.”
On or about January 4, 2017, the district court
denied petitioners’ “motion for reconsideration as
being untimely and meritless, but the district court
did acknowledge and state that the only remaining
ground for relief that is not expressly time-barred is
Rule 60(d)(3), which reflects the court’s inherent
power to “set aside a judgment for fraud on the court.”
Unfortunately, this inherent power was never utilized
by the court.
C. Ninth Circuit Proceedings
The Ninth Circuit affirmed the judgment.
Nonetheless, the Ninth Circuit concluded that the
district court properly determined that all of the
twenty-two alleged questionable grounds for relief
were untimely because their motion was filed more
than four years after the entry of judgment. In
reaching that conclusion, the court never properly
considered whether the combination of the beforediscovered and after-discovered fraud would have
sufficed to reverse the judgment nor that spoliation of
evidence by Respondents was apparent or refusal to
provide initial and subsequent discovery requests to
Petitioners were sufficient to constitute fraud upon
the court. Thus, it is logical to assume this would have
significantly changed the outcome of the case.
Otherwise Respondents would not have taken such
actions to hind, impede, and deceive the court.
On or about April 19, 2019, the Ninth Circuit
denied petitioners timely petition for rehearing. This
petition is as follows:
Page 17

REASONS FOR GRANTING WRIT
This Court concluded this question as much in
HazeC-AtCas.
But in the ensuing seven decades,
confusion has crept into lower-court cases, as
exemplified by the decision here limits the analysis to
after-discovered evidence, which is very similar to the
current case^ For this, the Court needs to reestablish
the commonsense approach of J{azeC-AtCas and to
restore public confidence in the fairness of federal
proceedings which has become necessary. Therefore,
this Court should grant the petition.
I. The Ninth Circuit’s Decision Imposes An
Erroneous And Unjustifiable Standard For
“Fraud Upon The Court”
The Ninth Circuit profoundly misinterpreted this
Court’s fraud-upon-the-court precedent by affirming
the district court’s judgment.
In so doing, it
established a rule that conflicts with this Court’s
precedent that not only gives a “free pass” to the
Respondents’ and their agents, including government
employees as peace officers, but also a “free pass” to
their counsel’s extraordinary “zealous representation”
via actions, behavior, and conduct raising to a level of
misconduct in such cases. Unfortunately, this will
improperly shield the offenders from scrutiny even
with the most unsavory of litigants. Thus, this Court
should grant certiorari to reject such guidance in an
important area of law that lower courts have been
struggling with for years now which has greatly and
improperly affected its litigants.

Page 18

A. This Court’s Precedent Does Not Limit
“Fraud upon the Court” Exclusively to “AfterDiscovered Fraud.”
Federal Rule of Civil Procedure 60 provides a
number of grounds for reopening judgments, most of
which are somewhat time-limited. However, any
allegations of “fraud upon the court” are treated
differently. As Rule 60(d)(3) explains, there is nothing
in Rule 60 which “limit[s] a court’s power to ...set
aside a judgment for fraud upon the court.”
“Almost all the principles that govern a claim of
fraud upon the court are derivable from the HazelAtlas case.” 11 Wright & Miller, Federal(practice and
(Procedure section 2870 (3d Ed.). In that case, HazelAtlas alleged fraud upon the court commencing in an
action in Hartford’s patent for a glass-making
machine. Hazel-Atlas, 322 U.S. at 239. In support of
Hartford’s application for that patent, “certain
officials and attorneys of Hartford determined to have
published in a trade journal an article signed by an
ostensibly disinterested expert” (William Clarke),
championing Hartford’s machine as “a remarkable
advance in the art of fashioning glass.” Id Hartford
received the patent in 1928 and sued Hazel-Atlas for
infringement. Id. at 240-41.
It may be argued that even though such fraud
may have existed pretrial, Appellants could have
discovered the fraud “through due diligence” which
would have discovered the fraud. Because of this, such
fraud does “not disrupt the judicial process” and does
not constitute fraud upon the court. However, with the
instant case, this argument should fail because
Appellees took every available step to preclude
Page 19

Appellants from receiving both initial discovery
requirements and subsequent requests for discovery.
In such a circumstance, Appellants had no ability to
and were actually prevented from using due diligence
when discovery documents were not provided to them
in a timely manner. This, in and of itself, does disrupt
the judicial process and therefore does constitute
fraud upon the court and should not be tolerated by
this Court.
Furthermore, in Sierra Pacific, after discovered
fraud would not be admissible because the parties
were bound by a Settlement Agreement which
precluded relief for after discovered fraud. Such an
agreement has not been executed by the parties to the
instant case. Therefore, after discovered evidence of
fraud, as well as, pretrial fraud maybe used by a court
under a totality of circumstances theory of recovery to
provide Appellants relief due to Appellees’
unconscionable actions, behavior, and conduct.
Last, but not least, Petitioners maintain that the
distinction between fraud and fraud on the court is, as
one court stated, “merely compilations of words that
do not clarify.” Toscano v. Comm'r, 441 F.2d 930, 933
(9th Cir.1971), and that in any event that Congress
may not through the federal rules infringe upon the
Court's intrinsic power to set aside or reverse
judgments on equitable grounds, as doing so violates
the separation of powers doctrine and because there is
no grant of any such authority in the Constitution.
The totality of the 60(d) denial follows:
The only remaining ground for relief that is not
expressly time'barred is Rule 60(d)(3), which reflects
the court's inherent power to "set aside a judgment for
Page 20

fraud on the court." Fed. R. Civ. P. 60(d)(3). However,
this ground is to be distinguished from simple fraud
by an opposing party. See In re Levander, 180 F.3d
1114, 1119 (9th Cir. 1999) ("[N]ot all fraud is fraud on
the court."). True "fraud on the court" requires a
showing by clear and convincing evidence of egregious
misconduct that "does or attempts to, defile the court
itself, or is a fraud perpetrated by officers of the court
so that the judicial machinery cannot pei’form in the
usual manner its impartial task of adjudging cases
that are presented for adjudication." In re
Intermagnetics America, Inc., 926 F.2d 912, 916
(9th Cir. 1991). "Mere nondisclosure of evidence is
typically not enough to constitute fraud on the court,
and 'perjury by a party or witness, by itself, is not
normally fraud on the court1" United States v. Estate
of Stonehill, 660 F.3d 415, 444 (9th Cir. 2011) The
allegations in plaintiffs' motion, even if proven,
amount to (alleged) perjury by a witness or
nondisclosure of evidence by the defense. At most, this
is ordinary fraud subject to Rule 60(b) and its one-year
time limit, not fraud on the court.
The statement in In re Intermagnetics
America, Inc., 926 F.2d 912, 916 (9th Cir. 1991) that
true fraud on the court requires a showing by clear
and convincing evidence of egregious misconduct that
“does or attempts to, defile the court itself, or is a
fraud perpetrated by officers of the court so that the
judicial machinery cannot perform in the usual
manner its impartial task of adjudging cases that are
presented for adjudication” is at odds with various
other definitions of fraud on the court found in the
case law. See, e.g., U.S. v. Sierra Pacific Industries,
(2015) 100 F.Supp.3d 948, 955 "[W]e have said that
Page 21

[fraud on the court] may occur when the acts of a party
prevent his adversary from fully and fairly presenting
his case or defense" and U.S. v. Estate of Stonehill
(Ninth Circuit 2011) 660 F.3d 415 446, "Non­
disclosure by an officer of the court or perjury by or
suborned by an officer of the court may amount to
fraud on the court only if it was “so fundamental that
it undermined the workings of the adversary process
itself’; Alexander v. Robertson, 882F.2d 421, 424 (9th
Cir.1989) (in determining whether fraud constitutes
fraud on the court, the relevant inquiry is not whether
fraudulent conduct “prejudiced the opposing party,”
but whether it “ ‘harmted]’ the integrity of the judicial
process”). In Stonehill, supra at 444-45, the court also
stated: "Most fraud on the court cases involve a
scheme by one party to hide a key fact from the court
and the opposing party. For example, in Levander
[Levander v. Prober (In re Levander), 180 F3d 1114
(9th Cir.1999)] a corporate officer testified in a
deposition that the corporation had not sold its assets,
and a bankruptcy court subsequently entered a
judgment against only the corporation. Levander, 180
F3dat 1116-17. It turned out that the corporation had
in fact transferred all of its assets to a related
partnership. Id. We held that the false testimony
constituted fraud on the court, and the bankruptcy
court was allowed to amend its order to include the
partnership as an additional party to the judgment.
Id. at 1122-23."
the
acknowledge
authorities
Other
indeterminacy of the concept; see Broyhill Furniture
Indus., Inc. v. Craftmaster Furniture Corp., 12 F3d
1080, 1085 (Fed. Cir. 1993), fraud on the court
"remains a ‘nebulous concept’, and 11 Wright & Miller
Page 22

§ 2870(2d ed.1987), “Perhaps the principal
contribution of all [the] attempts to define ‘fraud on
the court’ and to distinguish it from mere ‘fraud’ is as
a reminder that there is a distinction.”.
The concept of fraud on the court, in dire need
of clarification, nonetheless ought to apply to the case
under consideration. During the litigation in federal
court, Defendants' took extraordinary steps to impede
discovery, producing no documents at all in response
to requests for production or FOIA claims, in
circumstances where spoliation appeared very likely.
Defendants provided scores of 'I don't know' and 'I
don't recall' responses at deposition, and settled out
with a single Plaintiff without the knowledge or
approval of other Plaintiffs. During the litigation
Defendants' counsel requested and obtained work
product from pro se Plaintiffs, taking unfair
advantage of their pro se adversary's industry and
efforts. Any such clarification should be guided by the
history of FRCP 60, and the common law that it
sought to codify.
Plaintiffs provided additional
evidence of fraud in their motion, providing evidence
of further acts of discrimination and perjury. It is
commonly observed that discrimination claims are
difficult to prove, all the more so where defendants
conceal evidence and misrepresent facts.
The Court could find the foregoing sufficient to
prove fraud on the court regardless of the specific
definition adopted, that any acceptable definition of
fraud on the court must include the types of conduct
identified. Or the Court could clarify the concept to
enable the lower courts to distinguish fraud on the
Page 23

court from other fraud for purposes of adjudicating
FRCP 60(d) motions.
FRCP 60(D) Fraud On The Court
In US. v. Beggerly 1998 524 U.S. 38, 38-39,
Justice Rehnquist stated,
"The original Rule 60(b) established a new
system to govern requests to reopen judgments.
Because it was unclear whether that Rule provided
the exclusive means for obtaining post judgment
relief, the Rule was amended in 1946 to clarify that
nearly all of the old forms of obtaining relief from a
judgment were abolished but that the “independent
action” survived. However, this does not mean that
the requirements for a meritorious independent action
have been met here. Such actions should be available
only to prevent a grave miscarriage of justice,
[citation]"
As the Advisory Committee Notes to FRCP 60
make clear, the rule was intended to codify existing
law, while simply precluding relief through the form
of common law writs, instead "requiring the practice
to be by motion or by independent action." While the
statute itself uses the word 'abolish', the word should
not be taken to mean, as per one definition, to
(something)";
with
completely
do
away
https V/www. merriam - web ster .com/dictionary/abolish
The Committee "endeavored then to amend the
rules to permit, either by motion or by independent
action, the granting of various kinds of relief from
judgments which were permitted in the federal courts
prior to the adoption of these rules, and the
amendment concludes with a provision abolishing the
Page 24

use of bills of review and the other common law writs
referred to, and requiring the practice to be by motion
or by independent action.'" FRCP 60, Notes of
Advisory Committee on Rules—1946 Amendment.
"On the other hand, one of the purposes of the
bill of review in equity was to afford relief on the
ground of newly discovered evidence long after the
entry of the judgment. Therefore, to permit relief by a
motion similar to that heretofore obtained on bill of
review, Rule 60(b) as amended permits an application
for relief to be made by motion, on the ground of newly
discovered evidence, within one year after judgment",
FRCP 60, Notes of Advisory Committee on Rules—
1946 Amendment (emphasis added)1. The pedigree of
that power is described in Hazel-Atlas Glass Co. v.
Hartford-Empire Co (1944) 322 U.S. 238, 244'From the beginning there has existed along­
side the term rule a rule of equity to the effect that
under certain circumstances, one of which is afterdiscovered fraud, relief will be granted against
judgments regardless of the term of their entry,
[citations] This equity rule, which was firmly
established in English practice long before the
foundation of our Republic, the courts have developed
and fashioned to fulfill a universally recognized need
1 FRCP 60, Notes of Advisory Committee on Rules—1946
Amendment also states "If these various amendments, including
principally those to Rule 60(b), accomplish the purpose for which
they are intended, the federal rules will deal with the practice in
every sort of case in which relief from final judgments is asked,
and prescribe the practice." Perhaps this should have read
'proscribe the practice'.

Page 25

for correcting injustices which, in certain instances,
are deemed sufficiently gross to demand a departure
from rigid adherence to the term rule."
The Notes also state, "With reference to the
question whether, as the rules now exist, relief by
coram nobis, bills of review, and so forth, is
permissible, the generally accepted view is that the
remedies are still available, although the precise relief
obtained in a particular case by use of these ancillary
remedies is shrouded in ancient lore and mystery." As
things stand, then, it appears that federal courts are
asked to interpret a statute that codifies such ancient
lore and mystery.
The Notes also state that, "under the saving
clause, fraud may be urged as a basis for relief by
independent action insofar as established doctrine
permits. See Moore and Rogers, Federal Relief from
Civil Judgments (1946) 55 Yale L.J. 623, 653-659; 3
Moore's Federal Practice (1938) 3267 et seq. And the
rule expressly does not limit the power of the court,
when fraud has been perpetrated upon it, to give relief
under the saving clause [i.e., FRCP 60(d) Other
Powers to Grant Relief.] As an illustration of this
situation, [FRCP 60(d)] see Hazel'Atlas Glass Co. v.
Hartford Empire Co. (1944) 322 U.S. 238."
The statement arguably suggests that the effect
of FRCP 60(d) is to codify 'established doctrine'-in
this case judicial doctrine--freezing it in time, without
the possibility of evolution ordinarily found in the
common law. This would be problematic enough were
established doctrine at all clear.
Page 26

Constitutional Authority Over Judicial DecisionMaking
Whatever the intention, FRCP 60 constitutes a
significant departure from prior writ practices of the
Supreme Court and federal courts, primarily in
arbitrarily limiting the time in which comparable
motions can be brought.
In Wayman v. Southard (1825) 23 U.S. 1, 4, the
Court stated "Every Court has, like every other public
political body, the power necessary and proper to
provide for the orderly conduct of its business. This
may be compared to the separate power which each
house of Congress has to determine the rules of its
proceedings, and to punish contempts.", dayman,
supra atP. 15.
The Court's power derives directly from Article
III Section 1 and presumably involves all intrinsic
powers of the courts as perceived at that time.
The historical ability of the federal courts to
revise judgments was described in (Bronson v. SchuCten
(1881) 104 U.S. 410, 415 as follows:
"[T]hat after the term has ended all final
judgments and decrees of the court pass beyond its
control, unless steps be taken during that term, by
motion or otherwise, to set aside, modify, or correct
them! and if errors exist, they can only be corrected by
such proceeding by a writ of error or appeal as may be
allowed in a court which, by law, can review the
decision. So strongly has this principle been upheld by
this court, that while realizing that there is no court
Page 27

which can review its decisions, it has invariably
refused all applications for rehearing made after the
adjournment of the court for the term at which the
judgment was rendered [citing cases]"
and adding,
"But to this general rule an exception has
crept into practice in a large number of the State
courts in a class of cases not well defined, and about
which and about the limit of this exception these
courts are much at variance. An attempt to reconcile
them would be entirely futile", Bronson, supra at
416(emphasis added).
The conclusion is inescapable but that the
current Court inherited an irreconcilable tangle of
legal reasoning that should be re-conceptualized,
identifying valid and invalid strands of reasoning.
The current phrasing, 'fraud on the court', suggests
the guilty party has a specific intention to defraud the
court, for reasons that go beyond the instant
litigation. That reading, however, may provide a
natural interpretation of the phrase though it is
contrary to many case law statements, and in any
event involves no legal reasoning or constitutional
justifications for revising judgments.
The Decision Below Adds to The
B.
Confusion In The Lower Courts Over An
Exceptional Important Question.
This Court’s review of the issues presented is all
the more imperative because the Ninth Circuit’s
holding is inconsistent with fraud upon the court
standards offered by many other Courts of Appeal.
Page 28

In the decades since SfazeC-JLtfas, the legal
definition of fraud upon the court has confounded
courts and commentators. See, e.g., <Foite%reC. Foxy. <EC^
(Rjm CoaC Co., 739 F.3d 131, 136 (4* Cir. 2014)
(observing “that fraud upon the court is a ‘nebulous
concept’”); In re Qolf 255, Inc., 652 F.3d 806, 809 (7th
Cir. 2011) (noting that lower court’s attempts to define
fraud upon the court “do[n’t] advance the ball very
far”); Landscape (Props., Inc. v. ‘Vogel, 46 F.3d 1416, 1422
(8th Cir. 1995) (Fraud upon the court [is] not easily
defined.”); (Demjanjukjv. Petrovsky, 10 F.3d 338, 352 (6th
Cir. 1993) (“Fraud upon the court is a somewhat
nebulous concept[.]”). As a result of this uncertainty,
“[s]everal definitions” of fraud upon the court “have
been attempted” by the lower courts. 11 Wright &
Miller, federal (Practice and Procedure section 2870.
Many circuits have adopted standards of fraud
upon the court that do not include any “afterdiscovered fraud” requirement. See, e.g., jLerring v.
UnitedStates, 424 F.3d 384, 390 (3d Cir.2005) (defining
fraud upon the court as “(1) an intentional fraud; (2)
by an officer of the court; (3) which is directed at the
court itself; and (4) that in fact deceives the court,” and
the underlying fraud must be “egregious conduct”);
(Demjanju^ 10 F.3d at 348; floude v. (Mo6iCOiiCorp., 892
F.2d 1115, 1118 (1st Cir. 1989). [It should be noted
here that fraud, in and of itself, is a form of egregious
conduct unpermitted by the Courts and a party using
such methods in having a court render a judgment in
their favor and assessing upon the opposing party the
wrongdoers’ costs is both unfathomable and
unconscionable. The Court has the affirmative duty to
Page 29

prevent such a substantial miscarriage of justice upon
either party to its litigation.
Some circuits have suggested fraud upon the
court typically involves after-discovered fraud, but not
in cases (like this one) involving a “trail of fraud”
throughout the litigation process, TfazeC-JLtfas, 322
U.S. at 250, where the before-discovered and afterdiscovered fraud together amount to fraud upon the
court. See, e.g., In re (joCf 652 F.3d at 809; (jreat Coastal
Fxp., Inc. v. Int'CHfid Of‘Teamsters, 675 F.2d 1349, 1357
(4th Cir. 1982).
The Ninth Circuit, however, has now blazed a
new trail, holding clearly and unequivocally that a
finding of “fraud upon the court ... is available only
where the fraud was not known at the time of
settlement or entry of judgment,” regardless of whether
a litigant can be said to have committed fraud upon
the court when considering the combination of
misconduct known before judgment and the
misconduct discovered or confirmed only after
judgment.
The courts of appeals have struggled to define
“fraud upon the court” is unsurprising. This Court
has not materially addressed the doctrine since its
decision in TfazeC-Jltfas over seventy years ago. But
precisely because “the power to vacate a judgment for
fraud upon the court is so great,” it is “important to
know what kind of conduct falls into this category.”
See 11 Wright & Miller, Federal (practice and (procedure
section 2870.
Uncertainty in the lower courts on this important
yet unsettled issue is reason enough for proper review.
Page 30

Where the Ninth Circuit has muddled the one aspect
of the doctrine that should have been crystal-clear
from the facts and holding of tfazeC-jlt fas is yet another
reason for proper review. But the far more important
and compelling reason to grant review is that the
decision below undermines the integrity of the judicial
system by allowing fraud upon the fraud to go un­
remedied if the mosaic of the fraud emerges gradually
and continuously, rather than coming to light entirely
post-judgment. The Ninth Circuit’s rule makes no
real sense and consistency which needlessly casts
doubt on the integrity of the judicial system in the
circumstances where preserving judicial integrity is
vital.
Whether granting the writ generates an
II.
issue of exceptional importance to “public
interest.”
This Court’s decision will generate a needed
resolution to an issue of exceptional importance to be
addressed by the general public regarding speakingup or providing information even though it happened
some period of time before, about matters of high
public importance and interest, including public
officials committing crimes such as child abuse and
neglect, and sexual abuse; sexual harassment., etc.,
and their employers’ toleration, condoning, and
covering-up of such crimes.
The recent “me too” movement in Hollywood
and in areas through-out the nation; sexual
harassment and assault in the military; church
allegation of sexual abuse; sexual abuse inside the
nationwide detention facilities; Bill Crosby’s sexual
battery conviction; the “black lives matter” movement,
Page 31

and the now approaching chapter of overturning (RO(E
v. ‘Wade in the abortion arena are all areas which will
be severely impacted by this decision. This Court has
the discretion to encourage citizens to seek relief or
justice, regardless of unrealistic lapses of time that
would bar their right to provide relevant information
about matters of public importance, interest, and
concern, Thus, this great Court should now review
this case.
III. Whether a “public employee”, as witnesses
in this case a “California Sworn Peace Officer”
intentionally
provided
false
information
included supplement filings to the court rising
to a level constituting “fraud upon the court.”
The Appellees’ produced witnesses, who were CA
Peace Officer, just like “police officers” or “deputy
sheriffs”, were the “gate keeper” of the judicial or court
proceedings, colluded with their counsels to provide
the “false and fraudulent” documents and testimonies
to the court reporters and purposely have the Courts
overlook
Appellants’
statutory
presumptions,
declarations, testimonies, and evidence in opposition
to the MSJ. This inconsistency resulted in the district
court primarily and improperly basing Appellees’ false
and misleading testimonies to reach a summary
judgment in favor of Appellees.
Certainly where inclusion of false and misleading
evidence are used in order to deceive the Court in
rendering a decision on their behalf would constitute
fraud upon the court, than purposely and willing
failure to disclose evidence supporting the opponent’s
position would have the same detrimental effect...an
effect that would not have been realized “but for” the
Page 32

wrongdoer committing fraud upon the court in the
first place. Such conduct cannot and should not be
tolerated by the Courts.
CONCLUSION
Therefore, this Court should grant the petition for
certiorari based upon the aforementioned reasons
and circumstances.
Dated: August 27, 2019.
Respectfully submitted,

ALFRED LAM, PAULA LEIATO
P.O. Box 16376,
San Francisco, CA 94116
(415) 992-0071
In Pro Per

Page 33

SUPREME COURT OF THE
UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, D. C. 20543-0001
I declare under penalty of perjury that the foregoing
is true and correct.
August 27, 2019
/”s7 Alfred Lam, Paula Leiato
ALFRED LAM, PAULA LEIATO

Page 34

